No. 20-8316
IN THE SUPREME COURT OF THE UNITED STATES
_________________
MICHAEL LAWRENCE WILLIAMS, PETITIONER
v.

UNITED STATES OF AMERICA
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES IN OPPOSITION, via email and first-class mail,
postage prepaid, this 15th day of September 2021.
[See Attached Service List]

Brian H. Fletcher
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
September 15, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

20-8316
WILLIAMS, MICHAEL LAWRENCE
USA

ADAM RYAN NICHOLSON
OFFICE OF THE PUBLIC DEFENDER
525 SOUTH GRIFFIN STREET
SUITE 629
DALLAS, TX 75235
ADAM_NICHOLSON@FD.ORG

